EXHIBIT A
Case 4:17-cr-00007-JHM Document 28 Filed 10/19/17 Page 1 of 2 PagelD #: 59

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY

 

OWENSBORO DIVISION
)
UNITED STATES OF AMERICA )
)
PLAINTIFF ) Criminal Action No. 4:17cr-00007-JHM
v. ) CHIEF JUDGE JOSEPH H. MCKINLEY, JR.
)
TYSLEN J. BAKER )
)
DEFENDANT )

 

ORDER

The Federal Defender having moved the Court for leave to withdraw as appointed
counsel for the Defendant Tyslen J. Baker (DN 26), and the Court being sufficiently
advised;

IT IS ORDERED AND ADJUDGED the Federal Defender be, and it hereby is,
GRANTED leave to withdraw as counsel for the Defendant Tyslen J. Baker, and is hereby
relieved of all further responsibility herein;

IT IS FURTHER ORDERED AND ADJUDGED that CJA Panel Attorney
Michael T. Lee is appointed to represent the Defendant in all future proceedings in this
matter.

ENTERED this October 18, 2017

A: Poach Eantanatht

VSS Pei
H. Brent Brennenstuhl
United States Magistrate Judge
Case 4:17-cr-00007-JHM Document 28 Filed 10/19/17 Page 2 of 2 PagelD #: 60

Copies to: Counsel of Record
USS. Probation
Erica Skinner, Case Manager
